          INSPECTOR GENERAL, DOD, OVERSIGHT
            OF THE AIR FORCE AUDIT AGENCY
         AUDIT OF THE FY 2000 AIR FORCE WORKING
          CAPITAL FUND FINANCIAL STATEMENTS


Report No. D-2001-062               February 28, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AFAA                  Air Force Audit Agency
                      Office of the Inspector General, DoD
Report No. D-2001-062                                            February 28, 2001
  (Project No. D2001FD-0051.02)

        Inspector General, DoD, Oversight of the Air Force Audit
         Agency Audit of the FY 2000 Air Force Working Capital
                       Fund Financial Statements

                                  Executive Summary

Introduction. Public Law 101-576, the “Chief Financial Officers Act of 1990,”
November 15, 1990, as amended by Public Law 103-356, the “Federal Financial
Management Act of 1994,” October 13, 1994, requires DoD to prepare annual audited
Air Force Working Capital Fund financial statements. Office of Management and
Budget Bulletin No. 01-02, “Audit Requirements for Federal Financial Statements,”
dated October 16, 2000, establishes the minimum requirements for audits of these
financial statements. This Bulletin requires the Inspector General, DoD, to express an
opinion on the DoD financial statements and to report on the adequacy of internal
controls and compliance with laws and regulations. We delegated the audit of the
FY 2000 Department of the Air Force Working Capital Fund financial statements to the
Air Force Audit Agency (AFAA). This report is the first in a series of reports and
discusses the work performed on the oversight of the Air Force Audit Agency audit of
the FY 2000 Department of the Air Force Working Capital Fund financial statements.

Objective. Our objective was to oversee the Air Force Audit Agency to determine
whether we can rely on the audit conducted by AFAA, as required by Government
auditing standards. See Appendix A for a discussion of the audit process.

Results. The Air Force Audit Agency report, “Opinion on Fiscal Year 2000 Air Force
Working Capital Fund Financial Statements,” February 7, 2001, states that the auditors
were unable to express an opinion on the FY 2000 Department of the Air Force
Working Capital Fund financial statements. We concur with the Air Force Audit
Agency disclaimer of opinion; our endorsement of that disclaimer is Exhibit 1.
Excerpts of the Air Force Audit Agency report are included as Exhibit 2 and provide
the reasons for the disclaimer of opinion and identify the material weaknesses and
reportable conditions associated with the internal controls and compliance with laws and
regulations. The complete Air Force Audit Agency report can be accessed on the
Internet at http://www.afaa.hq.af.mil. The FY 2000 Department of the Air Force
Working Capital Fund Financial Statements can be accessed on the Internet at http://
www.dtic.mil/comptroller.
Table of Contents

Executive Summary                                                        i


Appendixes
     A. Audit Process
         Scope and Methodology                                           1
         Prior Coverage                                                  2
     B. Report Distribution                                              3

Exhibits
     1. Inspector General, DoD, Endorsement Memorandum
     2. Excerpts from Air Force Audit Agency Audit Report, “Opinion on
        Fiscal Year 2000 Air Force Working Capital Fund Financial
        Statements”
Appendix A. Audit Process

Scope and Methodology
    Audit Work Performed. To fulfill our responsibilities under Public Law
    101-576, the “Chief Financial Officers Act of 1990,” as amended by Public
    Law 103-356, the “Federal Financial Management Act of 1994,” and Office of
    Management and Budget Bulletin No. 01-02, “Audit Requirements for Federal
    Financial Statements,” dated October 16, 2000, we performed oversight of the
    independent audit conducted by the Air Force Audit Agency (AFAA) of the
    FY 2000 Department of the Air Force Working Capital Fund financial
    statements. We reviewed the AFAA audit approach and planning and monitored
    audit progress at the key points.

    Reviewing the AFAA Audit Approach. We used the “Federal Financial
    Statement Audit Manual,” January 1993, issued by the President’s Council on
    Integrity and Efficiency, and the “Financial Audit Manual,” December 12,
    1997, issued by the General Accounting Office, as the criteria for reviewing the
    AFAA audit approach. Specifically, we reviewed documentation for the audit
    planning and strategy, entity profile, general risk analysis, cycle memorandums,
    audit plans and programs, and other applicable documentation of the Air Force
    Working Capital Fund business areas.

    Monitoring Audit Progress. Through the DoD Financial Statement Audit
    Executive Steering Committee, and an integrated line-item oversight effort, we
    provided a forum for a centrally managed exchange of guidance and
    information. We reviewed and commented on the Air Force Audit Agency
    audit opinion report, which included discussions of issues on internal controls
    and compliance with laws and regulations. We reviewed key workpapers and
    summaries of Air Force Audit Agency audit results and conclusions.

    In addition to the oversight procedures, we performed other procedures as
    necessary to determine the fairness and accuracy of the AFAA audit approach
    and conclusions. We reviewed findings and recommendations in previous
    AFAA reports.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following corporate-level goal, subordinate performance
    goal, and performance measures:

           • FY2001 Corporate-Level Goal 2: Prepare now for an uncertain
             future by pursuing a focused modernization effort that maintains U.S.
             qualitative superiority in key warfighting capabilities. Transform the



                                        1
               force by exploiting the Revolution in Military Affairs, and reengineer
               the Department to achieve a 21st century infrastructure. (01-DoD-2)

           • FY2001 Subordinate Performance Goal 2.5: Improve DoD
             financial and information management. (01-DoD-2.5)

           • FY2001 Performance Measure 2.5.1: Reduce the number of
             noncompliant accounting and financial systems. (01-DoD-2.5.1)

           • FY2001 Performance Measure 2.5.2: Achieve unqualified opinions
             on financial statements. (01-DoD-2.5.2)

    DoD Functional Area Reform Objectives and Goals. Most major DoD
    functional areas have also established performance improvement reform
    objectives and goals. The report pertains to achievement of the following
    functional area objective and goal.

           •   Financial Management Area. Objective: strengthen internal
               controls. Goal: Improve compliance with the Federal Managers’
               Financial Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.

    Auditing Type, Dates, and Standards. We performed this financial statement
    audit from November 21, 2000, through February 7, 2001, in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. We did not use computer-
    processed data or statistical sampling procedures to conduct our oversight of the
    Air Force Audit Agency audit of the FY 2000 Department of the Air Force
    Working Capital Fund financial statements.

    Contacts During the Audit. We contacted individuals and organizations in the
    DoD audit community. Further details are available on request.

Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to financial statement issues. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil.




                                         2
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Denver Center

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office




                                           3
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          4
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

F. Jay Lane
Salvatore D. Guli
Brian M. Flynn
Byron B. Harbert
Gerald P. Montoya
